<html>
<title> - HEZBOLLAH'S STRATEGIC SHIFT: A GLOBAL TERRORIST THREAT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                     HEZBOLLAH'S STRATEGIC SHIFT: 
                       A GLOBAL TERRORIST THREAT

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 20, 2013

                               __________

                            Serial No. 113-6

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/





                  U.S. GOVERNMENT PRINTING OFFICE
80-122                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f99e8996b99a8c8a8d919c9589d79a9694d7">[email&#160;protected]</a>  
                                 ______


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Will Fulton, Iran analyst, Critical Threats Project, American 
  Enterprise Institute...........................................    10
Matthew Levitt, Ph.D., director, Stein Program on 
  Counterterrorism and Intelligence, The Washington Institute for 
  Near East Policy...............................................    21
The Honorable Roger Noriega, founder and managing director, 
  Vision Americas LLC (former Assistant Secretary of State for 
  Western Hemisphere Affairs and Former Ambassador to the 
  Organization of American States)...............................    39

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and chairman, Subcommittee on Terrorism, 
  Nonproliferation, and Trade:
  Material submitted for the record..............................     2
  Prepared statement.............................................     6
Mr. Will Fulton: Prepared statement..............................    13
Matthew Levitt, Ph.D.: Prepared statement........................    24
The Honorable Roger Noriega: Prepared statement..................    41

                                APPENDIX

Hearing notice...................................................    64
Hearing minutes..................................................    65


                     HEZBOLLAH'S STRATEGIC SHIFT: 
                       A GLOBAL TERRORIST THREAT

                              ----------                              


                       WEDNESDAY, MARCH 20, 2013

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 1:30 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The TNT Subcommittee will come to order. Without 
objection, all members may have 5 days to submit statements, 
questions, and extraneous materials for the record subject to 
the length limitation and the rules.
    Recent focus on Iran has centered on Tehran's quest for 
nuclear weapons, but the Iranians and their proxy Hezbollah 
also use terrorism to threaten global stability. Hezbollah 
enjoys the full backing of the Iranian regime. The Supreme 
Leader and the Iran Revolutionary Guard Corps direct 
Hezbollah's global terror campaign. Years ago, Hezbollah was a 
limited regional threat. Today, it is an international movement 
conducting terrorist and criminal acts in several parts of the 
world.
    Your attention can be directed to the poster on the right 
here showing some of Hezbollah's activities since 2010.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Poe. Hezbollah is responsible for plots and activities 
throughout the world: Attempted assassination of Israeli 
diplomats in New Delhi and India, February 2012; potential 
involvement in the bombing of an Israeli diplomat in Tbilisi, 
Georgia, February 2012; storing over 8,000 pounds of explosive 
material in a warehouse in Thailand, uncovered in January of 
this year; attempted assassination of Israeli targets in 
Bangkok in February of this year; attempted laundering of 
approximately $70 million from Venezuela to Germany in January 
2013; running training camps and international narcotics 
smuggling operations in Venezuela, Bolivia, Honduras, 
Nicaragua, and even Mexico; suicide bombing of a bus of Israeli 
tourists in Bulgaria in July 2012.
    In addition to these attacks, Hezbollah may have had a hand 
in the Iranian Revolutionary Guard Corps' Quds Force plots such 
as the attempted assassination of the Saudi Ambassador to the 
United States in Washington, DC, in October 2011.
    The uptick of Hezbollah's activity in recent years is a 
direct result of Iran. The Director of National Intelligence, 
James Clapper, recently described the Iran-Hezbollah 
relationship as ``a partnership agreement, with the Iranians as 
the senior partner.'' The Iranian agents running Hezbollah are 
the Iranian Revolutionary Guard Corps and the Quds Force.
    General Qassim Suleimani is the leader of the Quds Force. 
In his role, he serves as the de facto director of Hezbollah. 
Now major general, which is the highest rank in the Islamic 
Revolutionary Guard Corps, he has been the mastermind behind 
key Iranian foreign policy moves. He helped Iran grow its 
influence in Iraq and continues to support the murderous Assad 
regime in Syria. American and British intelligence officials 
draw comparisons between the real life Iranian general and the 
fictional Soviet spymaster Karla of John le Carre's Cold War 
novels. Only Suleimani is real and his war with the United 
States is real.
    Hezbollah is using social media to spread its propaganda 
and get new terrorist recruits. As of August, Hezbollah had 
tweeted an average of 250 tweets a day and had 18,000-plus 
followers. Clearly, Hezbollah understands the value of Twitter 
when it comes to spreading its propaganda. Too bad Twitter and 
our own Government don't recognize it, too, and prohibit the 
advertising of Hezbollah terrorism.
    Hezbollah is also getting information via apps and 
smartphones. BlackBerry and iPhone users who download an app 
called WhatsApp can get daily updates from Hezbollah. WhatsApp 
is one of the top overall paid apps, and the company is based 
in Dallas.
    The IRGC, Quds Force, and Hezbollah don't have to go it 
alone. They maintain lots of friends and allies in the world. 
The Venezuelans under the Chavez regime serve as one of the 
Iranians' closest allies. Hezbollah has used the Venezuelan 
banking sector to launder hundreds of millions of dollars a 
year and smuggle narcotics to the United States and even 
European markets. Hezbollah has also conducted terror training 
on Margarita Island for recruits from Venezuela and other Latin 
American countries. Hezbollah operatives and their co-
conspirators hold senior positions in the Venezuelan 
Government. They provide travel documents, weapons, and 
logistics support to terrorist operations and cocaine smugglers 
as our witnesses will explain further.
    In Afghanistan, the Iranians provide arms and training to 
Taliban fighters to kill United States and Afghan forces. In 
Africa, Iran and Hezbollah are expanding their terrorist and 
criminal networks in places like Senegal and Gambia. In Asia--
be China, North Korea or smaller countries like Malaysia--the 
Iranian-Hezbollah conspirators are outpacing our ability to 
constrain them.
    So far, U.S. efforts to combat the expanding threat have 
fallen short. Sanctions are necessary but they are not enough 
to counter the expanding activities of Hezbollah and the IRGC. 
Despite several international pressures, the EU has flat out 
refused to declare Hezbollah a terrorist group. This is too 
bad. This would pave the way for additional sanctions. If 
Western leaders continue to allow these actors to engage in a 
global campaign of terror without some repercussion, a 
dangerous precedent will be set.
    Hezbollah is not going away. It is even more troubling to 
imagine what the Iranians might be empowered to do if they are 
allowed to develop nuclear weapons. The United States and its 
allies must understand this threat and develop a comprehensive 
strategy of their own to confront these activities of Hezbollah 
and Iran.
    I will now yield 5 minutes to the ranking member, Mr. Brad 
Sherman from California, for his opening statement.
    [The prepared statement of Mr. Poe follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Sherman. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Iran, indeed, presents a global challenge to the United 
States, and Hezbollah is a major part of that challenge. The 
United States is building a coalition of countries that are 
confronting Iran in meaningful ways. Unfortunately, what we are 
doing now is exactly what we should have been doing in roughly 
2001. That doesn't mean we are doing the wrong thing, it just 
means we have to do more and we have to do it quicker.
    The Europeans, or elements in Europe, have asked us not to 
take military action against Iran and to use our good offices 
to persuade Israel not to do so as well. That being the case, 
you would think that Europe would do everything possible to 
assist us in using non-lethal methods to control Hezbollah, and 
more importantly, to stop the Iran nuclear program. One 
important step that European countries could take would be to 
list Hezbollah as a terrorist organization. They are on the 
spear of Iran's efforts to influence the world and to carry out 
terrorism in virtually every continent.
    As to Latin America, the United Nations Security Council 
approved the first round of U.N. sanctions in 2006. Ahmadinejad 
embarked on a tour of Latin America to try to emerge as a 
leader of anti-Americanism not only in Venezuela, but also 
Bolivia, Nicaragua, and Ecuador. Hezbollah and Iran have 
expanded their operations in Latin America, especially fund-
raising for illicit activities. This subcommittee and others, 
and the full committee, have focused on how Hezbollah has been 
involved in the tri-border region where Paraguay, Brazil, and 
Argentina come together. An extensive smuggling network there 
run by Hezbollah funnels large sums of money and there have 
been reports of training camps in the region.
    They have been able to cultivate ties to narcotraffickers 
and other criminal enterprises and even the government 
officials. And as they engage in narcotics activity, they are 
able to combine the true believer dedication of some of their 
operatives with the lucrative opportunities provided by the 
drug trade.
    We should point out that Hezbollah and Iran, working 
together, blew up the Buenos Aires Jewish community center late 
last century. That illustrates that Iran and its ally 
Hezbollah, or proxy, pose a greater danger perhaps than North 
Korea. Although Iran doesn't have nuclear weapons, Iran's 
desire to influence the world go all the way to Buenos Aires, 
which is as far from Tehran as you can get, I believe, on this 
planet. In contrast, the thugs who run North Korea seem mostly 
focused on maintaining their power in North Korea.
    The presence of Hezbollah in the region could very well 
serve as an important part of Iran's campaign to retaliate for 
efforts to curtail its nuclear program. One need look no 
further than the Quds Force sponsors' efforts to kill the Saudi 
Ambassador in Washington and the attack on Israeli interests in 
Europe and Asia to see examples of what we could see in the 
future.
    To that end, I worked, along with Chairman Poe and the 
author of the bill, Mr. Duncan, on the Countering Iran in the 
Western Hemisphere Act of 2012, which raised the profile of 
this problem and hopefully provided the Obama administration 
with tools that it will use to combat it. This legislation, of 
course, was signed into law last December.
    As to Syria, Hezbollah has an active part in the defense of 
the criminal Assad regime. Tehran has been sending commanders 
and fighters from Hezbollah and from the Revolutionary Guard 
Corps to Syria, as well as providing aid in arms. For those who 
question whether we should provide spare parts to Iran's 
supposedly civilian aircraft as ``the humanitarian thing to 
do,'' I would say those planes should be grounded until Iran 
grounds its nuclear program. Those planes right now are 
carrying those who would kill thousands of Syrians, and 
humanitarianism requires that we not provide spare parts to 
make sure those planes can do even more damage to the people of 
Syria.
    It appears that Hezbollah has a force of up to 50,000 
rockets trained on Israel. Before Iran develops a nuclear 
weapon, those rockets are a way of trying to threaten Israel 
into not doing something militarily. After Iran, if God forbid, 
has a nuclear weapon, we will see terrorism with impunity, and 
Iran's nuclear umbrella may allow Hezbollah to fire those 
rockets and also have defense.
    I see my time has more than expired. Let me just add that 
the transfer of chemical weapons to Hezbollah needs to be the 
reddest of red lines for the Assad regime. And I yield back.
    Mr. Poe. I recognize members for a 1-minute opening 
statement.
    Mr. Yoho from Florida, you are recognized for 1 minute.
    Mr. Yoho. Thank you, Mr. Chairman and Ranking Member 
Berman, for holding this hearing today. Today's topic is an----
    Mr. Sherman. Point of personal privilege. That would be 
Sherman.
    Mr. Yoho. I am sorry, sir.
    Mr. Sherman. Quite a difference between the two.
    Mr. Yoho. My apologies.
    We cannot hope to effectively deal with Iran until we 
understand the relationship between Iran and Hezbollah, and as 
Iran's de facto enforcer, Hezbollah has and will continue to be 
a large threat to not only peace in the region, but the world 
at large.
    I look forward to your testimony. And I have never seen 
this kind of involvement in the Western Hemisphere when you see 
Hezbollah going into South America in the reaches and the 
tentacles it has. I look forward to what you say about it and 
how we, on a foreign policy side, can help stop that. Thank 
you.
    Mr. Poe. The gentleman yields back. Without objection, all 
the witnesses' prepared statements will be made part of the 
record. I ask that each witness keep your presentation to no 
more than 5 minutes. I will now introduce the three witnesses 
that we have before they give their testimony.
    Mr. Will Fulton is an Iran analyst with the Critical 
Threats Project at the American Enterprise Institute. His 
research focuses on the Islamic Revolutionary Guard Corps, Quds 
Force, and Iran's Global Force Protection Network.
    Dr. Matthew Levitt is the director of the Stein Program on 
Counterterrorism and Intelligence at the Washington Institute 
for Near East Policy. He previously served as a deputy 
assistant secretary for intelligence and analysis at the 
Department of the Treasury and as a State Department 
counterterrorism advisor to the Special Envoy for Middle East 
Regional Security. He is also the author of the forthcoming 
book, ``Hezbollah: The Global Footprint of Lebanon's Party of 
God.''
    Ambassador Roger Noriega is the founder and managing 
director of Vision Americas, which advises the United States 
and foreign clients on international business issues. He is 
also a visiting fellow at the American Enterprise Institute. 
Prior to these roles, he was the United States Ambassador to 
the Organization of American States and Assistant Secretary for 
Western Hemisphere Affairs.
    Mr. Fulton, we will start with you. You have 5 minutes.

 STATEMENT OF MR. WILL FULTON, IRAN ANALYST, CRITICAL THREATS 
             PROJECT, AMERICAN ENTERPRISE INSTITUTE

    Mr. Fulton. Thank you, Mr. Chairman, Ranking Member and 
members of the committee, for the opportunity to testify today 
alongside my esteemed colleagues.
    The Islamic Republic of Iran is first and foremost 
concerned with regime preservation. So when we talk about 
Iran's global terror campaign and Iran's relationship with 
Lebanese Hezbollah, we must think about it in that context. 
Iran has established a substantial global force projection 
network that includes the Islamic Revolutionary Guards Corps, 
or IRGC, and the Quds Force, Hezbollah, and proxies in Iraq and 
Gaza. And although these groups may justify their activities in 
religious and ideological terms, at the end of the day they are 
a power projection, deterrent, and retaliatory force.
    The regime's vulnerability and relative military weakness 
demand an aggressive and far-reaching asymmetric capability. As 
a result, Iran's leaders have crafted a national security 
policy designed to protect the regime from external threats by 
demonstrating a capability to strike U.S. and Israeli interests 
anywhere in the world, and this strategy dates back to the 
regime's earliest years.
    Ultimately, Mr. Chairman, the IRGC is responsible for 
Iran's global force projection. The IRGC's mission is regime 
preservation and is responsible for every related internal and 
external security task required to accomplish this mission.
    The IRGC is a highly structured organization led by a small 
core network of individuals. This group fought side by side 
during the Iran-Iraq War, where they developed professional 
military experience, as well as enduring personal 
relationships. They are battle-tested commanders who played key 
roles early on, leading to increasingly important roles later, 
including within the Quds Force.
    The commander of the IRGC, Major General Mohammad Ali 
Jafari, reports to Iran's Supreme Leader. Each of the IRGC's 
five combat service commanders report directly to Jafari, 
except one. Quds Force Commander, Major General Qassim 
Suleimani, also reports directly to the Supreme Leader. 
Suleimani has the trust and confidence of the Supreme Leader 
and has had it for over 15 years. Any Quds Force activity has 
tacit, if not explicit approval of the Supreme Leader.
    I think that is one of the most important points to 
understand when we think about the complicity of Iran's top 
leadership and the global activities of the Quds Force, its 
partners and proxies. The notion that Quds Force operations are 
undertaken by rogue elements is implausible and not supported 
by any available information.
    Iran has provided continuous substantial support to 
Hezbollah since the 1980s, and their partnership has 
materialized in the form of multiple terrorist attacks around 
the globe, targeted assassinations, and military operations in 
wartime environments. During the Iraq war, the Quds Force 
worked closely with Hezbollah to train, fund, and arm Iraqi 
Shia militant groups, and plan and execute attacks against U.S. 
and coalition forces. I would like to pick out just a couple of 
examples where Quds Force commanders involved in Iraq have 
resurfaced recently.
    In 2007, Senior Quds Force Commander Abdul Reza Shahlai, 
along with a senior Hezbollah commander, planned the infamous 
attack in Karbala, Iraq, that resulted in the deaths of five 
U.S. soldiers. Shahlai later went on to help plan and 
facilitate the failed 2011 plot to assassinate the Saudi 
Ambassador to the U.S. here in Washington, DC.
    The Quds Force's number three in command was also active in 
Iraq. Mohsen Chizari, the head of Quds Force operations and 
training, was arrested in Baghdad in 2006 by U.S. forces, but 
was quickly released at the insistence of Iraqi Prime Minister 
Nouri al-Maliki, who cited diplomatic immunity. Now Chizari is 
considered one of the key members of the Quds Force's training 
and advising mission fighting to keep Bashar al-Assad in power 
in Syria.
    Syria is enormously important to Iran. It has long been 
Iran's closest state ally. It has provided Iran access to its 
proxies and partners. Iran has invested in Syria as a strategic 
ally as part of its deterrence against Israel. Iran's primary 
goal, then, has been to preserve Assad for as long as possible. 
But Iran is also working aggressively to establish a militant 
network that will enable them to retain a certain level of 
capability in post-Assad Syria.
    As you might expect, the Quds Force has been leading Iran's 
efforts in Syria. Just last month, a brigadier general in the 
Quds Force, with substantial ties to Hezbollah by the name of 
Hassan Shateri, was killed near Damascus after having been in 
Aleppo. We don't know exactly what Shateri was doing in Syria, 
but we suspect that he was on a mission related to the Al-Safir 
chemical weapons and missile storage facility near Aleppo. 
Shateri was important enough that Qassim Suleimani personally 
delivered the news of his death to Shateri's family and wept 
openly at his funeral. Senior Hezbollah officials also traveled 
to Iran to attend Shateri's funeral.
    Hezbollah has been integral to Iran's efforts in Syria, 
which has collaborated with the Quds Force in several areas, 
including training, advising, and arming pro-Assad forces. 
Iran, along with Hezbollah, may achieve some success with its 
strategy in Syria. But Iran's efforts offer only a temporary 
solution to Tehran. A rump Alawite state or a militant network 
cannot provide Iran with the same level of deterrence or 
political and economic support as Assad's Syria. This is why I 
think the fall of Assad has serious implications for Iran's 
global force projection strategy, and I will conclude on this 
point.
    As the conflict in Syria stretches on and Iran sees its 
strategic depth continually eroded, they are likely to seek to 
expand their operational territory. The interception in January 
of an Iranian weapons shipment containing sophisticated 
Chinese-made anti-aircraft missiles and large quantities of 
light arms, ammunition, and explosive material destined for al 
Houthi rebels in Yemen suggests that Iran has already ramped up 
its support for militants in at least one area. We should look 
for similar behavior in other areas where Iran has a presence.
    And finally, if you are wondering what a more active 
Iranian global force projection network might look like, 
consider the past 2 years where we have seen a plot to conduct 
a mass casualty attack here in Washington and plots in Georgia, 
India, Azerbaijan, Bahrain, Kenya, and Nigeria. We have seen 
Iran become more risk prone in its behavior and we are likely 
to see this trend continue.
    Thank you.
    Mr. Poe. Thank you, Mr. Fulton.
    [The prepared statement of Mr. Fulton follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Poe. Dr. Levitt.

STATEMENT OF MATTHEW LEVITT, PH.D., DIRECTOR, STEIN PROGRAM ON 
COUNTERTERRORISM AND INTELLIGENCE, THE WASHINGTON INSTITUTE FOR 
                        NEAR EAST POLICY

    Mr. Levitt. Thank you, Chairman Poe, Ranking Member 
Sherman, distinguished members of the committee. It is an honor 
to appear before you again this morning to discuss the nature 
of the global terrorist threat posed by Iran's strategic 
partner and principal terrorist proxy, Hezbollah. The nature of 
this threat has indeed increased dramatically over the past few 
years.
    Today's hearing on Hezbollah's strategic shift is extremely 
timely. This week marks the 21st anniversary of the 1992 
Israeli Embassy bombing in Buenos Aires. Failure to respond to 
that attack emboldened Hezbollah, which incurred no cost for 
that attack. Two years later, Hezbollah struck again, this time 
escalating from a diplomatic to a civilian target and blowing 
up the AMIA Jewish community center, also in Buenos Aires. 
Hezbollah is watching Europe and the West closely right now, 
much as it watched Argentina 21 years ago this week, to see if 
there will be any consequence to its recent escalation of 
terrorist activity around the world.
    Today's hearing is also well timed because tomorrow is a 
critical day for Hezbollah, the West, and Europe in particular. 
This is because a verdict is expected tomorrow in the case of 
Hossam Yaacoub, a self-confessed Hezbollah operative now on 
trial in Cyprus.
    You have the flier from my book, and in there I get into in 
great detail Hezbollah's global footprint, its activities in 
North America, South America, Asia, Africa, the Middle East, 
and Europe. I won't go into that right now. But as Director of 
National Intelligence James Clapper testified just last week 
before the Senate Select Committee on Intelligence, and I 
quote, ``We . . . face uncertainty about potential threats from 
Iran and Lebanese Hezbollah, which see the United States and 
Israel as their principal enemies.'' He continued, ``We 
continue to assess that Hezbollah maintains a strong anti-U.S. 
agenda but is reluctant to confront the United States directly 
outside the Middle East.''
    But Hezbollah is certainly active well beyond the Middle 
East, and that uncertainty about these potential threats stems 
from Hezbollah's recently increased global terrorist 
activities. Hezbollah today has two distinct operational 
trends. One involves its intent to avenge the death of Imad 
Mughniyah killed in Damascus in February 2008. Hassan 
Nasrallah, the head of Hezbollah, promised at the time ``open 
war,'' which is a quote, against Israel. They intend to target 
a current or former Israeli official in response and they have 
tried several times since and they have failed.
    The second operational trend is their effort to target 
Israeli tourists internationally as part of Iran's shadow war 
with the West, and here again we see Hezbollah acting outside 
the Lebanese interest, completely and only in the interest of 
its strategic partnership with Iran. There are two key dates to 
understand this latter threat. The first is September 2009, 
where after several failed attempts to conduct an attack 
against the Israelis to avenge Mughniyah's death, they tried 
again in Turkey, in September 2009, targeting a consul-general 
in Istanbul. They failed, despite extensive and increased Quds 
Force logistical support for that attack, leading Hezbollah and 
Iran to yell at each other, you are not good enough anymore, 
you are not providing as much support as you used to.
    As they are arguing with each in January 2010, someone 
assassinates Professor Mohammedi in Tehran with a sticky bomb. 
Professor Mohammedi was a particularly important person in 
Iran's nuclear program, and at that point Iran decides that two 
things will happen. The one is that the Quds Force will create 
a new unit, Quds Force Unit 400, specifically to target Western 
diplomats abroad, and also targets reflecting Israel, that is 
to say, Jewish targets, for example, the plot in Baku targeting 
two Jewish rabbis and a Jewish school. And the second is that 
Hezbollah will get its act together, would reenergize itself, 
rejuvenate the Islamic Jihad Organization, recruit people with 
foreign passports who could travel abroad, and begin to target 
Israeli tourists worldwide, and this happened.
    Hezbollah has been recruiting people with foreign passports 
from Sweden, from Canada, and Australia, just to give some 
examples. They have returned to old school tradecraft, and they 
have presented threats in Azerbaijan, Thailand, Cyprus, 
Bulgaria, kidnapping plots in Africa, delivering weapons to 
Houthi rebels in Yemen, and more.
    According to Bulgarian authorities, two of the three 
suspects from the July attack there last year were foreigners. 
One had an Australian passport, one had a Canadian passport. 
One returned back to Lebanon through Poland and one through 
Romania.
    But while that attack killed several people, the one that 
is going to have a bigger impact on Europe is the one that 
doesn't involve intelligence and information that won't be 
shared publicly, but the one that happened and was thwarted 2 
weeks earlier in Cyprus, where that information is now not 
classified but being presented in open court, in a European 
court, undergoing complete European judicial review, including 
cross-examination by defense, and that verdict is expected 
tomorrow.
    Hossam Taleb Yaacoub has described himself as a Hezbollah 
operative. In an eerily similar plot to the one in Bulgaria, he 
was conducting surveillance of Israeli tourists arriving there. 
At one point he said, I am not Hezbollah. Later he said, I 
didn't tell the whole truth, something weird was going on and 
when Hezbollah told me to conduct surveillance of an airplane, 
maybe they were plotting to bring down an airplane. I don't 
know. I am just speculating, he said. Later he said he was not 
part of a terrorist plot in Cyprus at all. Instead, he said, 
and I quote, ``It was just collecting information about the 
Jews, and this is what my organization does all over the 
world.''
    Hossam Yaacoub is a European citizen. He is a Swede. He 
grew up in Sweden. His father still lives there. The rest of 
his family is in Beirut. Before being sent to Cyprus to carry 
out this attack, he was sent on missions--he described them as 
missions, I am not describing them as missions, this is his 
word--as a courier, first to Turkey, then to Lyons, France, to 
meet some Hezbollah operative there, then to Amsterdam to meet 
some Hezbollah operative there. Taken together, the Bulgarian 
and Cypriot cases present compelling evidence of Hezbollah's 
continued operational activity, specifically in Europe.
    Hezbollah is watching Europe and the rest of the 
international community closely, much as it watched Argentina 
21 years ago this week. Argentina failed to respond to 
Hezbollah's challenge then and suffered the repercussions 2 
years later. Europe has an opportunity now to avoid that same 
mistake and should designate Hezbollah in whole or even just in 
part as a terrorist group for executing terrorist plots on the 
continent. History suggests that failure to do so could result 
in still more attacks by even still more emboldened Hezbollah.
    Thank you.
    Mr. Poe. Thank you, Dr. Levitt.
    [The prepared statement of Mr. Levitt follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Poe. Ambassador Noriega.

STATEMENT OF THE HONORABLE ROGER NORIEGA, FOUNDER AND MANAGING 
 DIRECTOR, VISION AMERICAS LLC (FORMER ASSISTANT SECRETARY OF 
 STATE FOR WESTERN HEMISPHERE AFFAIRS AND FORMER AMBASSADOR TO 
              THE ORGANIZATION OF AMERICAN STATES)

    Mr. Noriega. Thank you very much, Mr. Chairman. I applaud 
you and other members of the subcommittee for focusing 
attention on the global threat posed by Hezbollah, and I thank 
you for inviting me to share insights about that terrorist 
organization's growing network in the Americas that carries 
that threat to our doorstep.
    Mr. Sherman and Dr. Levitt referred to the 1992 and 1994 
bombings in Buenos Aires for which Hezbollah is considered 
responsible, and Iran. This is Hezbollah's despicable legacy in 
the Americas, and that terrorist group, along with Iran, has 
returned to the scene of the crime. During the last decade, 
Hezbollah has extended its reach quickly and substantially in 
dozens of countries in the Americas.
    This surge can be attributed to two key facts. Hezbollah 
counts on the direct political, diplomatic, material, and 
logistical support of governments, including one in this 
region, Venezuela, which has little in common with Iran but its 
hostility to the United States. Also, to facilitate its 
smuggling, money laundering, training, and fund-raising 
activities, Hezbollah collaborates with well-financed drug 
traffickers and narco-guerrilla groups with deep roots in the 
region and sophisticated smuggling and money laundering 
networks worldwide.
    I believe this challenge must be understood as the product 
of a conscious strategy of rogue regimes, Iran and Venezuela, 
to wage asymmetrical warfare against the United States' 
security interests and allies close to the homeland. This 
unconventional challenge in each of its political, criminal, 
and terrorist components requires a much more robust and 
comprehensive response. Allow me to share some of the details 
that explain the breadth and the depth of what Hezbollah is up 
to in our hemisphere.
    Two terrorist networks proselytize, fund-raise, recruit and 
train operatives on behalf of Hezbollah in many countries in 
the Americas. One of these parallel networks is operated by the 
Lebanese-born Ghazi Atef Nassereddine Abu Ali. That 
Nassereddine clan is based in Venezuela. And another is managed 
by Mohsen Rabbani, a former Iranian diplomat and Muslim cleric 
who is wanted for his role in those 1992 and 1994 bombings.
    Hezbollah operatives and their radical anti-Semite allies, 
anti-Semitic allies, use their senior positions in the 
Venezuelan Government to provide logistical, material, and even 
diplomatic and political support to help Hezbollah and other 
terrorist groups grow stronger very close to our homeland. In 
recent years, the Chavez regime has sent weapons to Hezbollah 
and it has shipped refined fuel to Hezbollah's allies in Iran 
and Syria. Venezuela's Margarita Island has become a safe haven 
for terrorists and drug smugglers. Hezbollah operates numerous 
businesses and safe houses in Venezuela and it has provided 
terror training in that country for recruits from that country 
as well as from other countries in Latin America.
    Numerous Latin American governments have detained Iranian 
and Lebanese and other persons carrying authentic Venezuelan 
passports among the thousands of Venezuelan passports and other 
documents that were issued to people of Middle Eastern 
background in the last dozen years. The state-owned airline of 
Venezuela, Conviasa, provides Iran, Hezbollah, and associated 
narcotraffickers a surreptitious means to move personnel, 
weapons, contraband, and other material in and out of this 
hemisphere. The Lebanese drug lord, Ayman Joumaa, was indicted 
in the United States in November 2011 for running cocaine-
smuggling and money-laundering schemes that benefitted 
Hezbollah. His network, which laundered as much as $200 million 
a month, involved criminal associates and corrupt businesses in 
Colombia, the United States, Mexico, Panama, Venezuela, as well 
as Lebanon. Also, in recent years, Mexico has arrested numerous 
individuals associated with Hezbollah engaging in various 
criminal activities, including smuggling of persons across the 
U.S. southwest border.
    Mr. Chairman, I believe that the foregoing discussion about 
the facts on the ground would lead most reasonable observers to 
conclude that Hezbollah is a problem in the Americas that can 
no longer be ignored, and I will highlight just a few 
recommendations on how we ought to respond.
    First, congressional leadership is absolutely essential, 
and pressure from this body is really important to get 
executive branch agencies to act more decisively. Legislation 
that Mr. Sherman referred to, I think the chairman referred to 
as well, passed by this Congress with strong bipartisan support 
late last year requires the State Department to report to 
Congress on Iran's activities in the region and to provide a 
strategy for countering this threat. This committee must insist 
on a whole-of-government response from the State Department. In 
some cases, you might decide that more resources are needed by 
the intelligence or law enforcement organizations responding to 
the threat, but also political will is just as important, and 
that requires pressure and oversight to ensure that the 
executive branch acts responsibly and rigorously.
    The links between Venezuelan officials and state-run 
agencies with drug trafficking, terrorism, Iran, and Hezbollah 
must be on the table as the State Department presents tough 
conditions for normalizing bilateral relations with Venezuela 
in a post-Chavez era. In the meantime, this criminal activity 
must be publicized and punished in the form of Federal 
indictments. Administrative sanctions are good interim 
measures; however, the Department of Justice should be asked, 
where are the indictments?
    And finally, the narcoterrorism on our doorstep advanced by 
Hezbollah with Iranian and Venezuelan support demands a 
response from those whose job it is to keep us safe. Our 
Government must take effective measures to disrupt and 
dismantle illicit operations and neutralize unacceptable 
threats before it is too late.
    Thank you very much, Mr. Chairman.
    Mr. Poe. I thank the witnesses for their testimony. The 
rest of their testimony will be made part of the record.
    [The prepared statement of Mr. Noriega follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Poe. Some observations. We had a map of some of the 
activities of Iran and where their tentacles of terrorism 
through Hezbollah have moved throughout the world. I suspect 
that if we come back a year from now and we have a similar 
hearing, we will have more red lines throughout the world 
instead of fewer red lines. Hezbollah is moving throughout the 
world, and I think the situation, based on your testimonies, is 
getting worse.
    Ambassador Noriega, you mentioned in your testimony that 
Hezbollah, working in the Americas directly in the south and 
southwest, is smuggling into the United States. Would you care 
to elaborate on that? Smuggling what?
    Mr. Noriega. Well, smuggling people and smuggling drugs and 
other things. They involve themselves in various criminal 
activities and collaborate with narcotraffickers on techniques 
in terms of smuggling. There is anecdotal information that 
Hezbollah provided Mexican narcotraffickers with training in 
how to make car bombs, which soon became a tactic used by the 
Mexican narcotraffickers in that country. You have a 
significant number of cases of individuals who were associated 
with Hezbollah in Venezuela also having contact with Mexican 
narcotraffickers. It is a little known fact that the Mexican 
cocaine smuggler, Chapo Guzman, who is the biggest----
    Mr. Poe. Public enemy number one.
    Mr. Noriega. Yes, absolutely. He spent most of the year 
2010 in Venezuela, including part of that time on Margarita 
Island, and we believe that it is there that some of the very 
highest links with Hezbollah and with some of the Venezuelan 
generals who are also involved in narcotrafficking took place, 
and some of that collaboration took place.
    Mr. Poe. Just for the record, he is the leader of the 
Sinaloa drug cartel that operates in Mexico and other places. 
And is your testimony that he has been trained or works with 
Hezbollah as well to bring drugs into the United States?
    Mr. Noriega. Well, I think it is pretty clear that 
Hezbollah cooperates with narcotraffickers all along that 
chain, not only smuggling but in the money laundering part of 
it.
    Now, whether Guzman was operational there, I don't have 
proof of that, but my sense of it is that that is where he had 
contact, regular contact while he was in Venezuela on Margarita 
Island with Hezbollah elements, and they cooperate up and down 
the chain, smuggling, money laundering, training in tactics to 
confront law enforcement, and all of those issues.
    Mr. Poe. Two more questions, one for Mr. Fulton and one for 
Dr. Levitt.
    You mentioned that Hezbollah really is under the auspices 
and control, not just of Iran, but of the Supreme Leader in 
Iran. Would you elaborate on that some?
    Mr. Fulton. Mr. Chairman, I don't know that I would say 
that Hezbollah is completely and utterly under the control of 
Iran. In recent history, we have seen Hezbollah emerge as 
somewhat of an independent actor. However, Iran obviously still 
maintains significant control over Hezbollah operationally. And 
when I say the Supreme Leader, what I mean by that is that, 
based on all of the information I have seen, there is nothing 
to indicate that there are rogue elements in the IRGC or other 
elements of the Iranian regime that are working with Hezbollah 
to undertake operations or to undertake any of the activity 
that they are involved in. So, if there is activity that the 
Iranian Government and Hezbollah are collaborating in, then 
that is undertaken with, at a minimum, tacit approval of the 
Supreme Leader.
    Mr. Poe. All right.
    Dr. Levitt, what is going to happen next with Hezbollah? I 
mean, where are they going next? Back to you and Ambassador 
Noriega's comments about some of the things that we can do, and 
also, in your opinion, why hasn't Europe labeled this group as 
a foreign terrorist organization? So, where are we headed? What 
about the Europeans?
    Mr. Levitt. You can't put a clock on me for that, sir.
    Mr. Poe. I will have to.
    Mr. Levitt. Where we are going is more of the same. 
Hezbollah has multiple interests and identities. It is Lebanese 
and it is interested in its position in Lebanon. It is pan-Shia 
and it is in partnership with Iran. What we are seeing is that 
the identity of its partnership with Iran is trumping the 
others. It is willing to do things now, whether it is targeting 
tourists in Bulgaria or Cyprus or flying a drone over southern 
Israel last fall that are completely in the Iranian interest, 
even explicitly against Lebanese interests. That makes 
Hezbollah very, very dangerous.
    Why are some European countries uninclined to designate 
Hezbollah? For a variety of reasons, from concern about what 
might happened to the UNIFIL soldiers, many of whom are 
European, Italian, and French, in particular in southern 
Lebanon, to what this means for the stability of Lebanon, which 
is politically quite unstable right now, to concern about 
retaliatory attacks at home. There are answers to all of those 
questions. There is no evidence that Hezbollah has ever 
retaliated with attacks against the entity that has designated 
it. Let's be honest, a designation is just calling it a name, 
saying that blowing things up is terrorism.
    There is no one that does more to undermine stability in 
Lebanon today than Hezbollah, which dragged Israel and Lebanon 
both into a war neither country wanted in 2006, took over 
downtown Beirut by force of arms leading to the deaths of 
fellow Lebanese in 2008, and raided the Chouf Mountains. It has 
been accused by the Special Tribunal for Lebanon, the U.N. 
Tribunal, with the assassination of Rafiq Hariri and other 
political assassinations, and of course now what is happening 
in Syria, which is going right across the border into Lebanon.
    We have to be, and I assure you that U.S. and foreign 
intelligence and law enforcement agencies are quite aware of 
the need to be very on top of these two threats, Iran, 
Hezbollah, which operate together and sometimes in competition, 
especially as we are concerned about Iran's nuclear program. If 
the diplomatic track doesn't produce results, the theory is 
that eventually there might have to be a strike on Iran's 
nuclear facilities and that Iran would, without a question, 
respond with asymmetric terrorist attacks worldwide.
    Mr. Poe. Thank you, Dr. Levitt.
    Yield 5 minutes to the ranking member from California, Mr. 
Sherman.
    Mr. Sherman. Mr. Levitt, Mr. Fulton, if Israel did take 
military action, obviously, Iran would want Hezbollah to open 
up with all the rockets it has got in southern Lebanon. Is 
there any doubt that Hezbollah would be willing to do that?
    Mr. Fulton. Sir, I would say on the Iranian side we have 
seen senior IRGC commanders state explicitly that Hezbollah 
would respond were Iran to be attacked by Israel. But I will 
defer to Dr. Levitt on the internal Hezbollah politics.
    Mr. Sherman. And who in Hezbollah has said that?
    Mr. Levitt. Thrown under the bus.
    My assessment is a little bit different. My assessment is 
that if Iran is attacked by Israel or someone else, that there 
will definitely be rockets fired at Israel from Lebanon, 
probably from Gaza, but that, depending on who attacks and how 
they attack and what the damage is and what the collateral 
damage is, will have a big impact on how many rockets, what 
types of rockets, because at the end of the day, you shoot a 
rocket into Israel, Israel can respond back. The only thing 
that there is no question is that there will also be reasonably 
deniable asymmetric terrorist attacks as well.
    Mr. Sherman. Turning to Syria, Mr. Levitt, what is the 
status of Iran and Hezbollah's involvement in Syria, what 
specifically are they doing to help the Assad regime, and what 
have Iran and Hezbollah done to prepare for a possible transfer 
of chemical weapons to Hezbollah if the Assad regime is likely 
to fall or at least lose Damascus and other key parts of Syria?
    Mr. Levitt. Iran and Hezbollah are deeply committed to the 
Assad regime even today, even though it is clear that the Assad 
regime will in time fall. The question is how it falls and when 
it falls. Is Assad killed, does he flee, do they establish an 
Alawi statelet along the coast? I think that is something that 
Hezbollah, in particular, is very eager to see happen. It is 
trying to help the Syrian regime establish territorial 
contiguity in Syria between Damascus and the Alawi areas. 
Failure to do that, it will provide that contiguity through the 
Bekaa Valley. One of the reasons----
    Mr. Sherman. Continuity between Damascus, which is in south 
Syria, and the Alawite region, which is in north Syria.
    Mr. Levitt. Curving along the Lebanese border where the 
Syrian FSA and others maintain control of some of the area in 
between.
    The reason Hezbollah is so keen for this is because one of 
the things that Hezbollah is most worried about, aside from 
losing the state sponsorship and all that, which it clearly 
sees it is going to lose, is the ability to get resupply of 
rockets and other things from Iran. If it can't get those 
resupplies, it will be much more constrained in shelling Israel 
indiscriminately for fear that it won't be able to restock. But 
if it has access to places like Latakia, which has an airport 
and which has a seaport that Hezbollah has long, long used for 
its international criminal arms proliferation purposes, 
something that has come up in several FBI investigations of 
Hezbollah here in this country, I think they feel that would 
give them some hope.
    In terms of the chemical weapons, we have a lot of 
questions. We are very concerned. But in particular we were 
concerned when we saw Hezbollah setting up small, little 
movable training camps right next to chemical weapon depots. 
Did they do that because they felt that was a good place where 
they could set up camp and people probably wouldn't shell them 
for fear of hitting the chemical weapon depots? Did they set 
that camp up because it is a good place to be to raid the 
storage site in the event that the regime falls? Both? We don't 
know. But as you, sir, said, and I couldn't say it better, that 
has to be the reddest of the red lines.
    Mr. Sherman. And I assume Hezbollah has the technical 
capacity to use these chemical weapons in the event that they 
get their hands on them? Does anyone disagree?
    Mr. Levitt. I think the biggest concern is that they get 
them. Once you have them, you can get the capability to use 
them, especially since you are so close to Iran.
    Mr. Sherman. And you are right there with the Assad regime, 
so you only need a few of their people to help you out.
    Mr. Levitt. Exactly.
    Mr. Sherman. You have talked about Europe not designating 
Hezbollah as a terrorist organization. What can the United 
States do to push Europe in the right direction on that? I will 
take an answer from any one of the three of you.
    Mr. Levitt. I just came back yesterday from a trip to 
Europe, Rome, Paris, and Berlin. The good news is I saw more 
movement in those three countries on this issue than I have in 
a long time, including since I was last in several of those 
countries.
    Mr. Sherman. I mean, this is a terrorist organization that 
carries out terrorism on European soil.
    Mr. Levitt. Europeans often see things in big dialectics. 
For them, there is no longer a debate is Hezbollah engaged in 
these activities, which there long was. Now the debate is, is 
this the right policy? What would it mean for stability in 
Lebanon? What would it mean for UNIFIL? I believe those are all 
answerable questions, and I made what I thought was a forceful 
argument to them that they need to do this not as a favor to 
the United States, not as a favor to Israel, but as a 
responsibility that they have to their constituents. Hezbollah 
has challenged them. Hezbollah is active in Europe, again 
operationally. And let's be clear, there was never a point when 
it was not active in Europe in terms of logistics, finance, 
arms procurement, or for sending people into Israel or 
elsewhere to carry attacks through Europe.
    Mr. Sherman. And finally, the Europeans care a lot about 
overflowing Assad. They may or may not want to provide weapons, 
but here is a chance to help the free Syrian forces.
    I yield back.
    Mr. Poe. The Chair recognizes the gentleman from 
California, Mr. Cook, for 5 minutes.
    Mr. Cook. Thank you, Judge.
    It is kind of ironic, I guess. Many years ago I was a 
company commander, spent a long time, as I said, as a leader of 
troops and marines, 1st Battalion, 8th Marines, which happened 
to be the unit that was blown up by Hezbollah in 1983, and we 
are perhaps going full circle.
    I appreciate the ranking member asking the question about 
chemical weapons. That is what I was going to ask. But I am 
also concerned about the Strait of Hormuz from a military 
standpoint. If you have got an organization that are almost, if 
you described it correctly, if I understood it correctly, that 
are almost like the Spetsnaz, to a certain degree, of Iran, and 
they have issues right now as to what is their international 
border, can they stretch it out. And it is that chokepoint 
which is very, very inflammatory and which many people think, 
you know, if a shooting engagement starts, it could very well 
be.
    And I was surprised that there has been no activity against 
Qatar or the United Arab Emirates because of their support for 
the United States and other more moderate regimes, and I just 
wanted to see if you would comment on the possibility that this 
agency that has been at the forefront of Iranian policy might 
be involved in that area in the future.
    Mr. Fulton. Sir, the IRGC has said time and time again, as 
has the chief of the Armed Forces General Staff that they 
intend to close the Strait of Hormuz if they were struck or if 
their interests were threatened otherwise. Now, my expertise 
does not lie in Iran's conventional military power. My 
understanding, from assessments that I have seen, is that they 
could close the Strait of Hormuz, but it would be for a very 
limited period of time. But absolutely, if that were to happen, 
the IRGC would be in the lead of those operations.
    Similarly, if there were to be any type of flash point 
conflict in the Persian Gulf in the Strait of Hormuz, it would 
very much likely be the IRGC and its navy at the forefront of 
that, sir.
    Mr. Levitt. I will just add two quick comments. The first 
on the 1983 Beirut bombings. The relevance to today is that in 
the book I was able to find, for the book, a significant amount 
of declassified intelligence, declassified CIA reports, FBI 
reports, done a lot of interviews with current and former 
officials, and it is quite clear across the board that the 
assessment after the fact was that our failure to respond to 
those attacks in a way that was meaningful to Iran and to 
Hezbollah, again after the Khobar Towers bombing in 1996, 
emboldened both Iran's Quds Force, the IRGC more generally, and 
Hezbollah. We are at that type of a precipice again right now.
    In terms of the Gulf regimes, I think there are lots of 
parts of the book that will surprise people, maybe nothing more 
so than the fat chapter on Hezbollah in Southeast Asia. But I 
think some people will be surprised by how extensive the two 
chapters are on Hezbollah in the Gulf. One chapter more 
historically oriented leading up to Khobar Towers bombing, 
regarding some of the earlier history, and the second one, 
getting much closer to today, Hezbollah established a dedicated 
unit to target coalition forces in Iraq, Unit 3800, and if you 
talk to our allies and friends in the Gulf area, of course they 
are concerned about Iran's nuclear capabilities, power 
projection in the region. They are no less concerned about 
Hezbollah's activities in the region. Iran, I believe, not only 
is interested in regime preservation, but also it remains today 
as it was at its founding, interested in exploiting the 
revolution, and that starts, for them, in the Gulf.
    Mr. Cook. Thank you.
    I yield back.
    Mr. Poe. I thank the gentleman.
    The Chair recognizes the gentleman from Florida, Mr. Yoho, 
for 5 minutes. We are going to try to finish before votes. 
Votes have already started, but we will try to finish the 
hearing so you all don't have to come back.
    Go ahead. Gentleman from Florida.
    Mr. Yoho. Thank you, Mr. Chairman.
    I appreciate you guys' testimony. And the big thing I see, 
you know, that concerns me probably more than anything is the 
infiltration into the Western Hemisphere of Hezbollah. My 
question is for all three of you, how much effect do the 
sanctions on Iran for funding to Hezbollah, how much effect do 
they have, our sanctions, and what can we do to make them 
stronger? And also how much funding is Hezbollah maybe getting 
out of Venezuela that we may not know about.
    Mr. Noriega. Well, as a matter of fact, for our sanctions 
on Iran to be more effective, we should be going after 
Venezuelan institutions.
    Mr. Yoho. That is what I was thinking.
    Mr. Noriega. The Saderat Bank of Iran, which is involved in 
all of these illegal activities and rogue nuclear programs, et 
cetera, wholly owns a bank called the Banco Internacional de 
Desarollo in Venezuela. They also have tens or probably 
hundreds of millions of dollars in every bank in Venezuela 
today, the Iranians do. And Hezbollah also is able to skim some 
money out of some of the fundraising activities that they do in 
their own right, but also in some of these criminal activities 
with narcoterrorist organizations, so they are able to skim 
money off of that. My sense of it is they probably take 
hundreds of millions of dollars because of the foothold that 
they have and the complicity they have in Venezuela.
    Mr. Yoho. Before we go on, Dr. Levitt, what is your opinion 
with the changing of guards in Venezuela?
    Mr. Noriega. It bodes very ill, sir.
    Mr. Yoho. Yeah.
    Mr. Noriega. Because Chavez, for all of his bombast and 
everything, was a strong character who could modulate some of 
these extreme influences that he comes under. Maduro, on the 
other hand, is demonstrating that he is very weak and he seems 
to be following a script that the Cubans have laid out for him. 
And the Iranians and Hezbollah have every intention of keeping 
ahold of that, that platform that they have in Venezuela, and I 
am afraid that without a strong hand, that whatever regime or 
whatever government takes over for Chavez will not be able to 
manage this, what Hezbollah and Iran are up to in their 
territory.
    Mr. Yoho. Okay. Thank you.
    Dr. Levitt.
    Mr. Levitt. Briefly, the issue of Western infiltration, 
infiltrating into the United States in particular, is one that 
is mostly one of, when it comes to hard facts, of 
vulnerability. There is no question, Roger is right, there is a 
lot of overlap in terms of smuggling routes, but there is only 
one known instance of a Hezbollah operative entering the United 
States from crossing the border illegally. You should take no 
comfort from that. He was one of the most dangerous Hezbollah 
people ever to be in this country. I refer to him as kind of 
Hezbollah's 007. And the person, the Lebanese Mexican who 
smuggled him in, admitted that he has smuggled, I think it was 
something like 1,500 other people in the country, and there is 
vulnerability. We don't know. I can't tell you that any of them 
were Hezbollah, I can't tell you none of them were Hezbollah. 
But that one individual was a pretty scary guy.
    In terms of the sanctions and the impact on Hezbollah, the 
good news is we have done some very, very good work there. 
There is always more to be done because our adversaries don't 
just capitulate. It is like squeezing a balloon, so they move 
someplace else. One of the ways Hezbollah has tried to respond 
not only to the sanctions against itself, against Hezbollah, 
but against our sanctions on Iran, which have made it more 
difficult for Iran to be able to be as generous in funding to 
Hezbollah, is to expand ever more so into crime, especially 
into narcotics trafficking, moving the product, especially from 
South America across the 10th parallel, which law enforcement 
refers to as Highway 10, to Africa, northward into Europe.
    Another point that we raise when we talk to the Europeans, 
Hezbollah, aside from its terrorist activity, is deeply engaged 
in criminal activity in the continent, in particular and 
including moving drugs into Europe. This gives us a whole 
nother set of tools that we can use. Roger said we should see 
more indictments. I expect that you will. I know that you will.
    Mr. Yoho. Thank you.
    Mr. Chairman, I am going to yield back because I have got 
to go do my duty and vote. Thank you.
    Mr. Poe. I thank the gentleman.
    I have one last question. Your testimony mentioned not only 
Hezbollah and Iran, but the Quds Force and Iran working 
together. Can you explain to me briefly the relationship, if 
any, between Hezbollah, the Quds Force, and Iran working with 
the other two, those two organizations together? Whoever wants 
to? Mr. Fulton, go ahead? Whoever wants to weigh in on that. 
That will be the last question.
    Mr. Fulton. Mr. Chairman, I would just add that, again, 
that the Quds Force, it is a component of the IRGC. The IRGC is 
first and foremost concerned with regime preservation and is 
led fundamentally by the Supreme Leader in that the commander 
of the IRGC and the Quds Force both report directly to the 
Supreme Leader. The Quds Force is the organization in Iran that 
takes the lead in its cooperation with Hezbollah.
    Mr. Poe. Dr. Levitt?
    Mr. Levitt. Hezbollah is Iran's creation, and the Quds 
Force is the primary interlocutor with Lebanese Hezbollah. My 
written statement goes into great detail about the nature of 
the relationship between them, as does our institute report on 
Hezbollah and the Quds Force, and Iran's shadow war with the 
West.
    I want to make two points that are maybe contrary to 
conventional wisdom, however, as we look at this recent trend 
of events and threats. One, as I alluded to earlier, is that we 
see these two groups engaging in significant operational 
cooperation together as they always have, but we also see them 
a little bit in competition. Right now from the Quds Force's 
perspective, it is Hezbollah 1, Quds Force nothing. 
Unfortunately, that means Hezbollah has carried out one 
successful terrorist attack, Burgas, Bulgaria, and the Quds 
Force has not.
    On the flip side, we also see an element of a lack of 
deconfliction. So in January of last year, when Hussein Atris, 
a Swedish Hezbollah operative, was arrested there in a case 
that has ties back to South America, explosives that he was 
sending there, just a couple of weeks later an IRGC Quds Force 
cell that was putting together sticky bombs was discovered 
there, not through any of our activities but because the bomb 
they were putting together exploded in their hands. It appears 
that there was not enough deconfliction. You would think that 
the Quds Force would have stopped its activities in Thailand at 
a time when Thai, U.S., Israeli, all international law 
enforcement and intelligence agencies were supremely focused on 
Thailand.
    We have seen it in another case that has gotten basically 
no press, and that is Bulgaria. Not only was the attack in 
Burgas, Bulgaria, the second Hezbollah attempt to carry out an 
attack there, but just about a week or two later authorities 
found an IRGC official conducting surveillance of a synagogue 
in Sofia. So, again, it is unclear why there is this level of 
deconfliction, but there is.
    Mr. Poe. Last word, Ambassador Noriega, briefly.
    Mr. Noriega. Yes, thank you, Mr. Chairman. Twenty seconds.
    IRGC has a presence, a foothold in Venezuela. There are 
about 70 Iranian companies, many of them sanctioned by the 
U.N., EU, U.S., for involvement in the ballistic missile 
program or the illicit nuclear program, that have industrial 
footprints in the United States and obviously accounts there, 
too. And IRGC Major General Amir Ali Hajizadeh, of the 
Revolutionary Guard Corps' aerospace program, has visited 
Venezuela on two occasions in the last 3 years to sites nearby 
of nitroglycerin and nitrocellulose plants associated with the 
Venezuelan petroleum industry. So there is something going on, 
on the chemical side there, too, that needs to be looked into.
    Mr. Poe. I want to thank all three of our witnesses for 
being here today and your expertise. Without objection, the 
chart, page 1 and 2, of the global map and the detailed back 
page, will be made part of the record. And this committee 
hearing is adjourned. Thank you once again.
    [Whereupon, at 2:23 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
